                               AR 07-001




FEDERAL TRADE COMMISSION
 Audited Financial Statements
     for Fiscal Year 2006




 OFFICE OF INSPECTOR GENERAL
                          AUDITED FINANCIAL STATEMENTS
                                   Fiscal Year 2006

                                  TABLE OF CONTENTS


INSPECTOR GENERAL OPINION

INSPECTOR GENERAL IDENTIFIED MANAGEMENT CHALLENGES

FINANCIAL STATEMENTS
   - Balance Sheets (Assets)
     Balanee Sheets (Liabilities)
     Statements of Net Costs
     Statements of Changes in Net Position
     Statements of Budgetary Resources
     Statements of Financing
     Statements of Custodial Activity

NOTES TO THE FINANCIAL STATEMENTS
    Note 1: Summary of Significant Accounting Policies
    Note 2: Non-Entity Assets
    Note 3: Fund Balanees with Treasury
    Note 4: Cash and Other Monetary Assets
    Note 5: Accounts Receivable
    Note 6: Property, Plant, and Equipment, Net
    Note 7: Liabilities Not Covered by Budgetary Resources
    Note 8: Other Liabilities
    Note 9: Leases
    Note 10: Commitments and Contingeneies
    Note 11: Intragovermuental Costs and Exehange Revenues
    Note 12: Exehange Revenues
    Note 13: Apportionment Categories of Obligations Incurred: Direet vs. Reimbursable
             Obligations
    Note 14: Explanation of Differences between the Statement of Budgetary Resourees and
             the Budget of the United States Government
    Note 15: Explanation of Differenees between Liabilities not eovered by Budgetary
             Resourees and Components requiring or Generating Resourees in Future
             Periods
    Note 16: Custodial Activities
    Note 17: Undelivered Orders at the End of the Period

SUPPLEMENTARY INFORMATION
     Supplementary Information (Intergovernmental Assets and Liabilities)
     Supplementary Information (Reimbursable Agreements)
     Supplementary Information (Intragovermuental Expenses)

EXHIBITS
     Exhibit A - Notes to the Statements of Custodial Aetivity-Aeerual Adjustments
     Exhibit B - Notes to the Statements of Custodial Aetivity-Changes in Liability Aeeounts
                                                    UNITEDSTATESOF AMER1CA
                                             FEDERAL TRADE COMMISSION
                                                      WASH1NGTON,D,(' 2058.0



Office of Inspector General




    Chairman Majoras:

    The Office ofInspector General has audited the Federal Trade Commission's (the Commission)
    Balance Sheets as of September 30, 2005 and 2006, and the related Statements of Net Cost,
    Statements of Changes in Net Position, Statements of Budgetary Resources, Statements of
    Financing, and Statements of Custodial Activity for the years then ended, and has considered
    internal control over financial reporting and the FTC's compliance with laws and regulations.

                                       Responsibilities and Methodology

   Management has the responsibility to:
         •     prepare the financial statements in conformity with generally accepted accounting
               principles described in Note I to the financial statements;

         •     establish and maintain an effective internal control over financial reporting; and

         •     comply with applicable laws and regulations.

   Our responsibility is to express an opinion on these financial statements based on our audit.
   Generally accepted auditing standards require that we plan and perform the audit to obtain
   reasonable assurance about whether the financial statements are free of material
   misrepresentation and presented fairly in accordance with the generally accepted accounting
   principles. We performed tests of controls in order to determine our auditing procedures for
   expressing our opinion on these financial statements and not to provide an opinion on the
   internal control over financial reporting. We are also responsible for testing compliance with
   selected provisions of applicable laws and regulations that may materially affect the financial
   statements.

   In order to fulfill these responsibilities, we


        •     obtained an understanding of the design of relevant internal controls and determined
              whether they had been placed in operation;

        •     assessed control risk;
    •   examined, on a test basis, evidence supporting the amounts aud disclosures in the
        financial statements;

    •   assessed the accounting principles used and significant estimates made by management;

    •   evaluated the overall presentation of the financial statements;

    •   tested compliance with selected provisions of the laws and regulations that may
        materially affect the financial statements; and
    •   performed other procedures that we considered necessary in the circumstances.

                               Opinion   011   Financial Statements

In our opinion, the financial statements referred to above, including the notes thereto, present
fairly, in all material respects, the Commission's assets, liabilities and net position as of
September 30, 2006 and 2005, and the net costs and changes in net position, its budgetary
resources, financing and custodial activities for the years then ended, in conformity with
accounting principles generally accepted in the United States.

                               Other Accompanying Information

Our audits were conducted for the purpose of forming an opinion on the FY 2006 and 2005
principal financial statements ofthe Commission taken as a whole. The information discussed
below is presented for purposes ofadditional analysis and is not a required part ofthe principal
financial statements.

   •    The information in the Required Supplementary Information section has been subjected
        to the auditing procedures applied in the audit of the Commission's principal financial
        statements and, in our opinion, is fairly stated in all material respects in relation to the
        principal financial statements taken as a whole.

   •    The information in the Management Discussion and Analysis and Program Performance
        sections ofthe Commission's annual financial statements is supplementary information
        required by the Federal Accounting Standards Advisory Board. We have applied certain
        limited procedures, which consisted principally of inquiries of management regarding
        the methods of measurement and presentation of the supplementary information,
        However, we did not audit the information and express no opinion on it. This
        information is addressed in our assessment of internal control discussed below.




                                                  2
                                  Opinion on Internal Control

In planning and performing our audits, we considered the Federal Trade Commission's internal
control over financial reporting by obtaining an understanding of the Commission's internal
control. We then determined whether internal controls had been placed in operation, assessed
control risk, and performed tests of controls in order to determine our auditing procedures for
the purpose of expressing our opinion on the financial statements. We limited our internal
control testing to those controls necessary to achieve the objectives described in OMB Bulletin
No. 06-03, "Audit Requirementsfor Federal Financial Statements ", We did nottcst all internal
controls relevant to operating objectives as broadly defined by the Federal Managers' Financial
Integrity Act of 1982, such as those controls relevant to ensuring efficient operations. Because
the objective ofOur audit was not to provide assurance on internal control, we do not provide an
opinion on internal control.

With respect to internal control related to performance measures reported in the Management
Discussion and Analysis and Program Performance sections, we obtained an understanding of
the design ofsignificant internal controls relating to the existence and completeness assertions,
as required by OMB Bulletin No. 06-03. Our procedures were not designed to provide
assurance on internal control over reported performance measures, and, accordingly, we do not
provide an opinion on such controls.

                                     Reportable Conditions

Our consideration ofthe internal control over financial reporting would not necessarily disclose
all matters in the internal control over financial reporting that might be reportable conditions.
Under standards issued by the American Institute of Certified Public Accountants, reportable
conditions are matters coming to our attention relating to significant deficiencies in the design or
operation of the internal control that, in our judgment, could adversely affect the Commission's
ability to record, process, summarize, and report financial data consistent with the assertions of
management in the financial statements. Material weaknesses are reportable conditions in
which the design or operation of one or more of the specific internal control components does
not reduce to a relatively low level the risk that misstatements in amounts that would be material
in relation to the financial statements being audited may occur and not be detected within a
timely period by employees in the normal course of performing their assigned functions.
Because of inherent limitations in internal controls, misstatements, losses, or noncompliance
may nevertheless occur and not be detected. However, we noted no matters involving the
internal control and its operation that we considered material weaknesses as defined above.

We noted certain other matters involving the internal control over financial reporting that we
have reported to the Commission's management in a separate letter (Management Letter AR 07-
OOIA).




                                                 3
                             Compliance with Laws and Regulations

As part of obtaining reasonable assurance about whether the financial statements are free ofmaterial
misstatements, we performed tests of the Commission's complianee with certain provisions oflaw
and regulation, noncompliance with which could have a direct and material effect on the
determination offinancial statement amounts. We also tested compliance with certain other laws and
regulations specified in OMB Bulletin No. 06-03, including the requirements referred to in the
Federal Financial Management Improvement Act (FFMIA) of 1996. We limited our tests of
compliance to these provisions and we did not test compliance with all laws and regulations
applicable to the Commission. However, the objective of our audit of these financial statements,
including our tests ofcompliance with selected provisions ofapplieable law and regulation, was not
to provide an opinion on overall compliance with such laws and regulations. Accordingly, we do not
express such an opinion.

Material instances ofnoncompliance are failures to follow requirements, or violations ofprohibitions
contained in statutes and regulations, that cause us to conclude that the aggregation of the
misstatements resulting from those failures or violations is material to the statement of financial
position referred to above.

The results of our test of compliance disclosed no instances of noncompliance with laws and
regulations that are required to be reported under Government Auditing Standards or OMB Bulletin
No. 06-03.

Under FFMIA, we are required to report whether the agency's financial management systems
substantially comply with the Federal financial management systems requirements, Federal
accounting standards, and the United States Government Standard General Ledger at the transaction
level. To meet this requirement, we performed tests of compliance with FFMIA Section 803(a)
requirements.

The results ofour tests disclosed no instances in which the agency's financial management systems
did not substantially comply with the three requirements discussed in the preceding paragraph.

With respect to items not tested, nothing came to our attention to cause us to believe the Commission
had not complied, in all respects, with those provisions.

Our audits were conducted in accordance with auditing standards generally accepted in the United
States; Government Auditing Standards, as issued by the Comptroller General ofthe United States;
and OMB Bulletin No. 06-03. We believe that our audits provide a reasonable basis for our opinion.




                                                 4
While this report is intended solely for the information and use ofthe Federal Trade Connnission, the
Office of Management and Budget and the Congress, it is also a matter of public record, and its
distribution is, therefore, not restricted.




Washington, D.C.
November 13, 2006                                     Federal Trade Commission




                                                5
                                                   UNlTED STATES or AMERICA
                                            FEDERAL TRADE COMMISSION
                                                    WASHTNGTON, D_C 20580



Office of Inspector General




                                                    October 25, 2006


    MEMORANDUM


               TO:              Deborah Majoras

                                ~:('LP;//
                              -:,45w~i'i1V'sn~f1--
               FROM:
                               Inspector General

               SUBJECT:        FY2006 FTC Management Challenges


   The Federal Trade Commission is required to submit a Performance and Accountability Report
   (PAR) to the Office of Management and Budget in November 2006. The PAR contains a number
   of sections that address issues ranging from performance to financial management. The financial
   management section requires that the Inspector General provide the Agency head with a
   summary of the management and performance challenges facing the Agency and a brief
   assessment of the agency's progress in addressing those challenges, This summary is included in
   the FTC's submission of the PAR.

   OIG comments on management challenges are limited to those areas where the office has
   performed audit work. Consequently, this summary does not address all possible vulnerabilities
   and/or management challenges.

   After careful analysis, it is my assessment that the areas of information technology security,
   redress administration, and the protection of personally identifiable information represent
   important management and performance challenges for the FTC. The rationale for this
   assessment is outlined in the attached document.

  The Office of Inspector General has enjoyed strong support from Agency management and looks
  forward to working with you as we address matters of mutual concern. We also welcome any
  comments or reactions to our assessment.

   Attachment
                              Office of Inspector General
                Top Management ChaUenges at the Federal Trade Commission


Management Challenge: Safeguarding personally identifiable information

Agency Progress in Addressing the Challenge: Safety and security ofpersonally identifiable
information (PIl) is an important component the Federal Trade Commission's (FTC)
responsibility. Computer technology has made it possible for detailed personal information to be
easily compiled and shared. Over the past year, FTC has taken significant action to assure that PH
collected and stored electronically is protected, including measures to protect PH stored on
portable equipment. As the amount ofPIl collected, used and shared by the agency inevitably
increases, the FTC must continue to take precautions to protect PIT.

The Challenge Ahead: All FTC managers must focus on the challenge of safeguarding the
private, sensitive information in their care. The FTC managers must continue to take aggressive
measures to control the collection, use and transmission of PIT.

Management ChaUenge: Securing the agency's critical systems and networks from
destruction, data loss, or compromise

Agency Progress in Addressing the Challenge: Information security has been an ongoing
challenge at most Federal agencies, including the FTC. Some weaknesses identified in past
security reviews included untested or inadequate system security plans, systems placed into
production before accreditation by FTC's Office of Information and Technology Management
(ITM), and failure to adhere to NlST stan£!'llrtt!: m the certification and accreditation of major
applications.

ITM continues to make progress in developing a mature information security program and has
implemented or addressed OIG- identified security vulnerabilities discussed in previous securi ty
reviews. For example ITM:

   •   Certified and accredited Commentworkst'"
   •   Conducted risk assessments, security plans, and security control reviews for an Internet
       Lab and the Litigation Support Lab
   •   Added 64 new weaknesses to the plan of action and milestones (POA&M) from a variety
       of information technology security reviews, while successfully taking corrective action on
       45 existing weaknesses
   •   Made additional progress in developing an effective disasterrecovery plan by developing
       a Continuity of Government kit that contains all the software and documentation ITM
       needs to reconstruct information technology operations
   •   Took steps to secure FTC's Private Automatic Branch Exchange (PBX) Voice Over
       Internet Protocol (VOlP) system
   •   Implemented controls that restrict access to FTC's share drives
 The Challenge Ahead: While taking steps to safeguard systems and information, it is sometimes
 easy to overlook basic security controls, such as changing default passwords, limiting employees'
 access to systems and data needed to perform their job responsibilities and ensuring that
 background checks for employees with access to the agency's most sensitive systems are
 performed and updated regularly. The challenge for FTC managers is to remain focused on basic
 security controls as they strive to stay one step ahead of new, highly sophisticated security
 threats.

 Management Challenge: Assure effective coutrol and administration of the IT Security
 Program as "ownership" of IT systems is vested in management components.

Agency Progress in Addressing the Challenge: OIG has been advised that the agency intends to
vest "ownership" ofIT systems in its management components. As the ownership of IT systems
is vested in various Offices and Bureaus in the FTC, protecting the IT infrastructure from being
misused or compromised must be assured. This will involve a coordinated effort involving the
Office of Information and Technology Management (ITM), senior FTC information security
officer, authorizing officials, information system owners/program managers, and information
system security officers.

The Challenge Ahead: The senior information security officer, acting on behalf of the Office of
Information and Technology Management, should coordinate with organizational officials
responsible for the development and implementation of the designated common security controls
to ensure that the required controls are put into place, the controls are assessed, and the
assessment results are shared with the appropriate information system owners. ITM should
continue to set and enforce IT security policy for the FTC.

Management Challenge: Increased oversight of redress distrihution hy contractors

Agency Progress in Addressing the Challenge: As a deterrent to fraud by contractor employees, the
RAO performs tests of select distributions to tie cancelled checks back to original claimant lists.
Since contractor staff does not know which distributions will be selected, or the number of checks
selected for audit, this practice serves as a deterrent to fraud.

The current testing procedure works as follows. RAO obtains all cancelled checks from redress
contractors on selected distributions. RAO then pulls 10 checks from the universe of all checks
issued to tie back to the claimant list. By increasing the sample size, and using computer assisted
audit techniques, RAO could significantly improve the likelihood of uncovering fraud.

The Challenge Ahead: RAO should increase the sample size of tests of redress dim-ibutions. RAO
should start using automated audit tools in its oversight of redress contractors. Data extraction and
analysis software could be used to compare original claimant lists to positive pay records submitted
to banks. Some tools, such as IDEA software by CaseWare International, Inc., can examine 1.4
million records in four seconds, once the data is imported into the software. Records can be
compared to identify checks issued to people not on approved claimant lists maintained by RAO.
Bank disbursements records could also be imported as an additional crosscheck.
                                                                                                   2
                                                                -
 Management Challenge: Improve oversight of receiver activities and due diligence in the
 recommendation of receiver candidates.

Agency Progress in Addressing the Challenge: Court appointed receivers are legally obligated to
report to the court regarding their performance of their fiduciary obligations. Past experience
demonstrates that the FTC cannot rely on most courts to oversee the activities of receivers and
detect wrongdoing. In addition, staff attorneys are not fully aware of the past performance of
receiver candidates. Thus, in one instance, FTC attorneys continued to recommend an individual
to serve as a receiver because they were unaware that the receiver had failed to provide required
reports in other cases. In another case, a receiver was recommended who had been found by a
court to have violated his fiduciary duties in the past. FTC staff maintains some contact with
receivers regarding the progress of receiverships, especially as it pertains to consumer redress.
However, the FTC's authority to oversee receiver performance after appointment by the court is
limited. Despite the agency's limited authority to police receiver's activities, there may be
practical measures to assist the agency in ensuring receiver integrity and accountability. These
measures derive from the fact that the FTC is called upon to recommend potential receiver
candidates to the court, and the agency's authority to recommend that the court not authorize fees
based on receiver performance,

The Challenge Ahead: When applying to be considered for recommendation to be a receiver the
applicant should be required to identify any instance in which they were found to have failed to
perform the fiduciary obligations required of a receiver.

RAO should serve as a central repository for information on the qualifications and past
performance of receiver candidates. This information should be readily available to staff
attorneys who are selecting potential receiver candidates to recommend to the court. RAO should
also assist staff in reviewing receiver qualifications and past performance.

FTC attorneys should communicate to receiver candidates that the FTC takes seriously the
integrity of the receiver's performance and will review all receiver reports filed with the court.
The FTC should also ask that the court include a requirement for periodic reporting as part of the
order appointing a receiver. Such requirements will make receiver candidates aware that the FTC
will monitor their activities and will act to protect consumers' interests.




                                                                                                3
                      FEDERAL TRADE COMMISSION
                             BALANCE SHEETS
                     As of September 30, 2006 and 2005
                                 (Dollars in thousands)




                                                                        2006                2005
Assets (Note 2)
    Intragovernmental:
         Fund balance with Treasury (Note 3)                       $      70,139        $     78,213
         Accounts receivable (Note 5)                                         55                  87
    Total intragovernmental                                               70,194              78,300

     Cash and other monetary assets (Note 4)                             100,548              81,468
     Accounts receivable (Note 5)                                        136,968              84,355

     General property, plant and equipment, net (Note 6)                  14,400              15,096

Total assets                                                       $     322,110        $    259,219



Liabilities:
           Intragovernmental:
                Accounts payable                                   $       2,213        $      2,468
                Other (Note 8)                                            20,096              12,825
           Total intragovernmental                                        22,309              15,293

          Accounts payable                                                 5,769               7,731
          Other (Note 8)                                                 244,897             185,245
          Total liabilities (Note 7)                                     272,975             208,269

Net position:
    Unexpended appropriations - other funds                                   14                  14
    Cumulative results of operations - other funds                        49,121              50,936
    Total net position                                             $      49,135        $     50,950

Total liabilities and net position                                 $     322,110        $    259,219




                     The accompanying notes are an integral part of these statements,
                           FEDERAL TRADE COMMISSION
                            STATEMENTS OF NET COST
                  For the Years Ended September 30, 2006 and 2005
                                      (Dollars in thousands)



                                                                      2006                2005
Program costs
    Maintaining Competition Mission:
        Gross costs                                              $      88,275        $     84,486
        Less: earned revenue                                          (111,668)           (100,375)
        Net program (revenue) costs (Note 11)                          (23,393)            (15,889)


    Consumer Protection Mission:
       Gross costs                                                     119,430            111,992
       Less: earned revenue                                            (21,776)           (18,169)
        Net program (revenue) costs (Note 11)                           97,654             93,823

Net cost of operations                                           $      74,261        $    77,934




                   The accompanying notes are an integral part of these slatements.
                   FEDERAL TRADE COMMISSION
                Statements of Changes in Net Position
          For the Years Ended September 30, 2006 and 2005
                               (Dollars in thousands)




                                                        2006              2005

Cumulative Results of Operations:
   Beginning balance, adjusted                      $      50,936     $     35,496

Budgetary Financing Sources:
       Appropriations used                                 77,470           86,754
       Less: Other - Recission                            (12,000)

Other Financing Sources (Non-Exchange):
        Imputed financing                                   6,976             6,620

    Total Financing Sources                                72,446            93,374
    Less: Net Cost of Operations                          (74,261 )         (77,934)
    Net Change                                              (1,815)          15,440

    Cumulative Results of Operations                      49,121            50,936


Unexpended Appropriations:
   Beginning balance, adjusted                                 14                36

Budgetary Financing Sources:
       Appropriations received                             78,390           87,838
       Less: Other adjustments (Recission)                   (920)          (1,106)
       Less: Appropriations used                          (77,470)         (86,754)

        Total BUdgetary Financing Sources                                        (22)

    Total Unexpended Appropriations                            14                14

    Net Position                                    $     49,135      $     50,950




                   The accompanying notes are an integral part of these statements,
                          FEDERAL TRADE COMMISSION
                   STATEMENTS OF BUDGETARY RESOURCES
                 For the Years Ended September 30,2006 and 2005
                                     (Dollars in thousands)




                                                                                    2006           2005
BUdgetary Resources:
   Unobligated balance, brought forward, October 1:                           $      13,926    $      8,427
   Recoveries of prior year unpaid obligations                                        1,043             773

    Budget authority
       Appropriation                                                                 78,390          87,838
        Spending authority from offsetting collections
            Earned
                 Colieeted                                                         133,475          118,579
                 Change in receivables from Federal sources                            (32)             (34)
            Change in unfilled customer orders
                 Without advance from Federal sources                                 (167)             258
        Subtotal                                                                   211,666          206,641

    Permanently not available                                                       (12,920)         (1,106)

    Total Budgetary Resources                                                 $    213,715     $    214,735
Status of Budgetary Resources:
    Obllqations incurred (Note 13)
         Direct                                                                     69,653           82,007
         Reimbursable                                                              133,187          118,802
         Subtotal                                                                  202,840          200,809
    Unobligated balance
         Available                                                                    8,187           5,287
         Not available                                                                2,688           8,639

   Total status of budqetary resources                                        $    213,715     $    214,735
Change in Obligated Balance:
   Obliqated balance, net
        Unpaid obligations, brought forward, October 1                        $     47,045     $     36,376
        Less: Uncollected customer payments from
             Federal sources, brought forward, October 1                              (400)            (176)
        Total unpaid obligated balance, net                                         46,645           36,200

    Obligations incurred net                                                       202,840          200,809
    Less', Gross outlays                                                          (201,592)        (189,367)
    Less: Recoveries of prior year unpaid
         obligations, actual                                                         (1,Q43)           (773)
    Change in uncollected customer payments
        from Federal sources (+1-)                                                     199             (224)
    Obligated balance, net, end of period
         Unpaid obligations                                                         47,250           47,045
         Uncollected customer payments from Federal sources                           (201 )           (400)
Net Outlays
    Net Outlays:
        Gross outlays                                                              201,592          189,367
        Less: Offsetting collections                                              (133,475)        (118,579)
        Less: Distributed offsetting receipts                                      (10,021)         (23,035)

        Net Outlays                                                           $     58,096     $    47,753



                        The accompanying notes are an integral part of these statements,
                                        FEDERAL TRADE COMMISSION
                                         STATEMENTS OF FINANCING
                               For the Years Ended September 30, 2006 and 2005
                                                    (Dollars in thousands)




                                                                                                2006             2005
Resources Used to Finance Activities:
Budgetary Resources Obligated
    Obligations incurred                                                                   $     202,840     $    200,809
   Less: Spending authority from offsetting collections and recoveries                          (134,319)        (119,576)
    Obligations net of offsetting collections and recoveries                                      68,521           81,233

Other Resources
    Imputed financing from costs absorbed by others                                                6,976            6,620
    Net other resources used to finance activities                                                 6,976            6,620

    Total resources used to finance activities                                                   75,497           87,853

Resources Used to FInance Items not Part of the Net Cost of Operations:
    Change in budgetary resources obligated for goods,
        services and benefits ordered but not yet provided                                        (2,058)          (9,225)
    Resources that finance the acquistion of assets                                               (3,208)          (4,127)

    Total resources used to finance items not part of the net cost of operations                  (5,266)         (13,352)

    Total resources used   to finance the net cost of operations                                 70,231           74,501

Components of the Net Cost of Operations that will not Require or
   Generate Resources in the Current Period:
   Components Requiring or Generating Resources in Future Periods;
       Increase in annual leave liability                                                              113              87
       Other                                                                                            12              45
       Total components of Net Cost of Operations that will require or
        generate resources in future periods                                                           125              132

    Components not Requiring or Generating Resources:
       Depreciation and amortization                                                              3,905            3,301
       Total Components of Net Cost of Operations that will not require or
        generate resources                                                                        3,905            3,301

    Total components of net cost of operations that will not require or
    generate resources in the current period                                                      4,030            3,433

    Net Cost of Operations                                                                 $     74,261      $    77,934




                             The accompanying notes are an integral part of these statements.
                                          FEDERAL TRADE COMMISSION
                                      STATEMENTS OF CUSTODIAL ACTIVITY
                                 For the Years Ended September 30, 2006 and 2005
                                                      (Dollars in thousands)


                                                        (Refer to Note 16)


                                                               Me Mission       CP Mission          2006          2005
Revenue Activity:
    Sources of Collections:
         Premerger Filing Fees (Net of Refunds) (a)           $    110,913     $                $   110,913   $    99,511
         Civil Penalties and Fines (b)                                                20,458         20,458         6,479
         Redress (c)                                                                  37,283         37,283        82,181
         Divestiture Fund (dl                                          970                              970           708
         Funeral Rule Violations                                                        170             170             7
    Total Cash Collections                                         111,883           57,911         169,794       188,886

    Accrual Adjustments (e)                                                          52,813          52,613        21,476
    Total Custodial Revenue                                   $    111,883     $    110,524     $   222,407   $   190,362

Disposition of Collections:
    Transferred to Others:
          Treasury General Fund                                                      29,402          29,402        20,095
          Department of Justice                                    109,861                          109,861        96,652
          Receivers (f)                                                                    7              7           182
          Redress to Claimants (g)                                                    14,367         14,367        66,109
          Contrator Fees Net of Interest Earned (h)                                      905            905         6,291
          Attorney Fees                                                                                             8,712
          Court Registry                                                               1,600          1,600         2,755

    Increasel(Decrease) in Amounts Yet to be Transferred             2,022           64,243         66,265         (10,434)

Net Custodial Activity                                        $                $                $             $




                              The accompanying notes are an integral part of these statements
                          FEDERAL TRADE COMMISSION
                           Notes to the Financial Statements
                   For the Years Ended September 30,2006 and 2005



NOTE I -- SUMMARY OF SIGNIFICANT ACCOUIVTING POLICIES

(a)    Reporting Entity

The Federal Trade Commission (FTC) is an independent United States (U.S.) Government
agency, established by the Federal Trade Commission Act of 1914. The FTC enforces a
variety of federal antitrust and consumer protection laws. The Commission is headed by five
Commissioners, nominated by thc President and confirmed by the Senate, each serving a
seven-year term. The President chooses one Commissioner to act as Chairman. No more
than three Commissioners can be of the same political party.

The FTC has two primary mission areas; maintaining competition and consumer protection
that are supported by the Bureau of Competition (BC), the Bureau of Consumer Protection
(BCP) and the Bureau of Economics (BE). Additionally, the following Offices provide
mission support as described. The Office of the Executive Director is the FTC's ehief
operating officer and manager, responsible for such matters as administrative services,
financial management, procurement, human resources management, information and
technology management, as well as overall FTC program and policy execution. The Office
of Congressional Relations works closely with members of Congress and their statts. The
Offiee of General Counsel is the FTC's chief legal officer and adviser. The Office of Public
Affairs provides information to the public through the media. The Secretary is the
Commission's "court clerk," responsible for implementing the Commission's voting
procedures, creating official records of its decisions, receiving and serving Commission
orders and other official documents, and coordinating the preparation of responses to
congressional constituent inquiries. The Office of Inspector General is responsible for the
detection and prevention of waste, fraud and abuse in agency programs.

The majority of FTC staff is located in Washington D.C., however the FTC's Regional
Offices cover seven geographic areas. The regional offices work with the Bureaus of
Competition and Consumer Protection to conduct investigations and litigation; provide
advice to state and local officials on the competitive implications of proposed actions;
recommend cases; provide local outreach services to consumers and business persons; and
coordinate activities with local, state, and regional authorities. FTC regional offices
frequently sponsor conferences for small businesses, local authorities, and consumer groups.

The FTC seeks to ensure that the nation's markets function competitively and are vigorous,
efficient, and free of undue restrictions. The FTC also works to enhance the smooth
operation of the marketplace by eliminating acts or practices that are unfair or deceptive.

(b)    Fund Accounting Structure

The FTC's financial activities are accounted for by federal account symbol (i.e., fund
oversight groups). They include the accounts for appropriated funds and other fund groups
                           FEDERAL TRADE COMMISSION
                            Notes to the Financial Statements
                    For the Years Ended September 30,2006 and 2005



described below for which the FTC maintains financial records and consumer redress
accounts for which the agency has management.

General Funds Treasury Account Symbol (TAS) 29XOI 00 consists of salaries and expense
appropriation accounts used to fund agency operations and capital expenditures.

Deposit Funds TAS 29X60 13 consists of monies held temporarily by the FTC as an agent
for others (e.g. redress funds).

Suspense Funds TAS 29F3875 represent receipts awaiting proper classification, or held in
escrow, until ownership is established and proper distributions can be made.

Miscellaneous Receipt Accounts TAS 29 1040 and 29 3220 reflects civil penalties and
other miscellaneous receipts that by law are not retained by the FTC. Cash balances are
automatically transferred to the general fund of the Treasury at the end of each fiscal year.

(c)    Basis ofAccounting and Presentation

The financial statements present the financial position, net cost of operations, changes in net
position, budgetary resources, financing, and custodial activities of the FTC, in accordance
with U.S. Generally Accepted Accounting Principles (GAAP) and the Financial Reporting
Requirements of the Office of Management and Budget (OMB) prescribed in OMB Circular
A-l36 (as revised July 2006). They have been prepared from the books and records of the
FTC and include the accounts of all funds under the control of the FTC. Accounting
principles generally accepted in the U.S. of America encompass both accrual and budgetary
transactions. Under the accrual method, revenues are recognized when earned and expenses
are recognized when a liability is incurred, without regard to receipt or payment of cash.
Budgetary accounting facilitates compliance with legal constraints and controls over the use
of federal funds. The accompanying financial statements are prepared on the accrual basis of
accounting.

In addition, the accompanying statements include information on the activities of the
ageney's eonsumer redress program. Independent agents are eontracted to administer the
program under the oversight of FTC program offices, which maintain the financial records
for consumer redress activity.

(d)    Budget Authority

Congress annually passes appropriations that provide the FTC with authority to obligate
funds for necessary expenses to carry out mandated program activities. These funds are
available until expended, subject to OMB apportionment and to Congressional restrictions
on the expenditure of funds. Also, the FTC places internal restrictions on fund expenditures
to ensure the efficient and proper use of all funds. Appropriated funding is derived from

2
                          FEDERAL TRADE COMMISSION
                           Notes to the Financial Statements
                   For the Years Ended September 30, 2006 and 2005



various revenues and financing sources.

(e)    Fund Balances with the U.S. Treasury

Fund balances with Treasury consist of appropriated funds that are available to pay current
liabilities and to finance authorized purchase eommitments, and restricted funds, which
include deposit and suspense funds. The FTC's fund balanees with Treasury arc carried
forward until sueh time as goods or services are received and payment is made or until the
funds are returned to the U.S. Treasury. Cash receipts and disbursements are processed by
the U.S. Treasury, with the execption of (redress) funds received and subsequently
distributed (in accordance with court orders) by FTC agents to claimants.

(f)    Accounts Receivable

Accounts receivable consist of amounts due from other federal entities and from current and
former employees and vendors. Non-entity accounts receivable include uncollected civil
monetary penalties imposed as a result of the FTC's enforcement activities and uncollected
redress judgments. Since the FTC does not retain these receipts, a corresponding liability is
also recorded for non-entity accounts receivable. Gross receivables are reduced to Net
Realizable value by an allowance for uncollectible accounts (see Note 5 Accounts
Receivable).

(g)    Property, Plant and Equipment

The basis for recording purchased general Property, Plant and Equipment (PP&E) is full
cost, including all costs incurred to bring the PP&E to and from a location suitable for its
intended use. The FTC's PP&E consists of equipment, leasehold improvements, and
software. Leasehold Improvements include all costs incurred during the design and
construction phase of the improvement. These costs are amortized over the remaining life of
the lease, or the useful life of the improvements, whichever is shorter. The land and
buildings in which the FTC utilizes are owned by commercial vendors and the U.S. General
Services Administration (GSA). Owners of Commercial buildings charge rent based on rates
negotiated by GSA (on FTC's behalf). For GSA owned property, GSA charges the FTC a
Standard Level Users Charge (SLUC) that approximates the commercial rental rates for
similar properties. FTC policy is to capitalize all PP&E with an initial cost greater than
$100,000 and a useful life over two years

(h)    Cash and Other Monetary Assets

With the exception of cash held in consumer redress custodial accounts by FTC's contracted
agents, the FTC does not maintain cash in commercial bank accounts. (See accompanying
Statements of Custodial Activity).


3
                          FEDERAL TRADE COMMISSION
                           Notes to the Financial Statements
                   For the Years Ended September 30,2006 and 2005



(i)    Accrued Liabilities and Accounts Payable

Accrued Liabilities and Accounts Payable represents a probable future outflow or other
sacrifices of resources as a result of past transactions or events. Liabilities are recognized
when they are incurred, regardless of whether they are covered by hudgetary resources.
Liabilities can not be liquidated without legislation that provides the resources to do so.
Also, the Government, acting in its sovereign capacity, can abrogate FTC liabilities (other
than contracts). See Note 7 for information on "Liabilities not covered by budgetary
resources" and Note 8 for information on "Other Liabilities".

(j)    Employee Health Benefits and Life Insurance

FTC employees are eligible to participate in the contributory Federal Employees Health
Benefit Program (FEHBP) and the Federal Employees Group Life Insurance Program
(FEGLIP). The FTC contributes a percentage to each program to pay for current benefits.

(k)    Post-Retirement Health Benefits and Life Insurance

FTC employees eligible to participate in the FEHBP and the FEGLIP may continue to
participate in these programs after their retirement. The Office of Personnel Management
(OPM) has provided the FTC with certain cost factors that estimate the true cost of
providing the post-retirement benefit to current employees. The FTC recognizes a current
cost for these and Other Retirement Benefits (ORB) at the time the employee's services are
rendered, The ORB expense is financed by OPM, and offset by the FTC through the
recognition of an imputed financing source on the Statement of Financing, During fiscal
years 2006 and 2005, the cost factors relating to FEHBP were $5,229 and $4,903,
respectively, per employee enrolled. During fiscal years 2006 and 2005, the cost factor
relating to FEGLIP was 0,02 percent of basic pay per employee enrolled,

(I)    Employee Retirement Benefits

FTC employees participate in either the Civil Service Retirement System (CSRS) or the
Federal Employees Retirement System (FERS), Employees hired after December 31, 1983,
are covered by FERS and Social Security, while employees hired prior to January I, 1984,
may elect to either join FERS or remain in CSRS, Approximately 24 percent of FTC
employees participate in CSRS, For employees participating in CSRS, the FTC contributes
seven percent of the employee's gross earnings to the CSRS Retirement and Disability Fund,
For employees participating in FERS, the FTC contributes 11.2 percent to the Federal
Employees' Retirement Fund. Employees participating in FERS are covered under the
Federal Insurance Contributions Act (FICA) for which the FTC contributes a matching
amount to the Social Security Administration. FTC contributions are recognized as current
operating expenses, The Thrift Savings Plan (TSP) is a defined contribution retirement
savings and investment plan for employees covered by either CSRS or FERS. CSRS and

4
                                FEDERAL TRADE COMMISSION
                                 Notes to the Financial Statements
                         For the Years Ended September 30, 2006 and 2005



FERS participating employees may contribute any dollar amount or percentage of basic
salary to TSP, not to exceed an annual dollar amount of $15,000, tor 2006. CSRS
participating employees do not receive a matching contribution from the FTC. For FERS
employees, the FTC contributes one percent of the employee's gross pay to the TSP. The
FTC also matches 100 percent of the first three percent contributed and 50 percent of the
next 2 percent contributed. FTC contributions are recognized as current operating expenses.
Although the FTC contributes a portion for pension benefits and makes the necessary payroll
withholdings, it is not responsible for contribution refunds, employee's retirement benefits,
or the retirement plan assets. Therefore, the FTC financial statements do not report CSRS
and FERS assets, accumulated plan benefits, or unfunded liabilities, if any, which may be
applicable to employees. Such reporting is the responsibility of the aPM.

However, the FTC recognizes the full cost of providing future pension benefits to covered
employees at the time the employees' serviees are rendered. aPM has provided the FTC
with certain cost factors that estimate the true service cost of providing the pension benefits
to eovered employees. The cost faetors used to arrive at the service cost are 25 percent of
basie pay for CSRS covered employees and 12 percent of basic pay for FERS covered
employees during fiscal years 2006 and 2005. The pension expense recognized in the
financial statements equals this service cost to eovered employees less amounts contributed
by these employees. If the pension expense exceeds the amount eontributed by the FTC as
employer, the excess is recognized as an imputed financing cost. The excess total pension
expense over the amount contributed by the agency must be financed by aPM and is
recognized as an imputed financing source, non-exchange revenue.

Pension expenses in 2006 and 2005 consisted of the following:

(Dollars in thousands)                            2006                2005
                                              Total Pension       Total Pension
                                                Expense             Expense


Civil Service Retirement System           $           4.029   $           4,255
Federal Employees Retirement System                   8,548               7,616
Thrift Savings Plan                                   3,374               3,164

Total                                     $          15,951   $          15,035



(m)      Net Position

The FTC's net position is composed of the following:

Unexpended appropriations include the amount of unobligated balanees and undelivered
orders, Unobligated balances are the amount of appropriations or other authority remaining
after deducting the eumulative obligations from the amount available for obligation.

5
                           FEDERAL TRADE COMMISSION
                            Notes to the Financial Statements
                    For the Years Ended September 30, 2006 and 2005



Cumulative results of operations represent the net results of operations since inception, the
cumulative amount of prior period adjustments, the remaining book value of capitalized
assets, and future funding requirements.

(n)    Revenues and Other Financing Sources

The FTC's revenues are derived from spending authority from offsetting collections and
from direct appropriation. Spending authority from offsetting collections, is comprised of (I)
amounts received for services performed under reimbursable agreements and (2) amounts
received from collection of fees under the Hart-Scott-Rodino (HSR) Act and the National
Do Not Call Registry. For amounts collected under reimbursable work performed, revenue
is recognized (accrued) when services are performed. Relative to fees, revenues are
recognized when fees are earned. (See note 12)

In addition to exchange revenue, the FTC receives financing sources through direct
appropriation from the general fund of the Treasury to support its operations. A financing
source, appropriations used, is recognized to the extent these appropriated funds have been
consumed. In fiscal years 2006 and 2005, the FTC received a financing source in the form
of a direct appropriation that represented approximately 36 percent of total revenues and
financing sources realized.

(0)    Methodology for Assigning Cost

Total costs were allocated to each mission based on two components: a) direct costs to each
mission and b) indirect costs based on the percentage of direct FTE used by each mission.

(p)    Use ofEstimates

The preparation of financial statements in conformity with generally accepted accounting
principles requires management to make estimates and assumptions that affect the reported
amounts of assets and liabilities at the date of the financial statements and the reported
amounts of revenues and expenses during the reporting period. Actual results could differ
from those estimates.

(q)    Reclassifications

Certain reclassifications to prior-year balances have been made in the accompanying
financial statements to make disclosures consistent with those of the current year.




6
                                       FEDERAL TRADE COMMISSION
                                        Notes to the Financial Statements
                                For the Years Ended September 30,2006 and 2005



NOTE 2 -- NON-ENTITY ASSETS

The following summarizes Non-entity Assets as of September 30,2006 and 2005:

(Dollars ill thousands)                                 2006          2005
 Inrragoverrunental:
    Fund balance with Treasury                      $    12,214   $     17.642


Cash and other monetary assets (Note 4)                 100,548        81,468
Accounts receivable                                     136,968        84,355
Total non-entity assets                                 249.730       183.465
Total entity assets                                      72,380        75,754
Total Assets                                        s   322,110   $   259,219


Non-entity Fund Balance with Treasury primarily represents undisbursed premerger tiling
fees and deposits held for the consumer redress program, Cash and other Monetary Assets
consist of amounts on deposit with FTC distribution agents and divestiture fund deposits,

NOTE 3 -- FUND BALANCES WITH TREASURY

Fund balances with Treasury consisted of the following at September 30,2006 and 2005:

(Dollars in thousands)                                  2006          2005
Fund Balances:
    Appropriated funds                              $    57,925   S    60571
    Suspense fund - undisbursed HSR filing fees          10,441         9,389
    Deposit fund" - redress                               1,773         8,253
         Total                                      s    70,139   S    78,213


Status of Fund Balance with Treasury
                                                        2006          2005
    Unobligated balance
      Available                                     s     8,187   $     5,287
      Unavailable                                         2,688         8,639
    Obligated balance not yet disbursed                  47,050        46.645
    Non-Budgetary fund balance with Treasury
      Suspense fund ~ undisbursed HSR tiling fees        10,441         9,389
      Deposit funds - redress                             1,773         8,?53
        Total                                       $    70,139   s    78,213


The Obligated Balance not yet Disbursed includes accounts payable and undelivered orders
that have reduced unexpended appropriations but have not yet decreased the cash balance on
hand,




7
                                     FEDERAL TRADE COMMISSION
                                      Notes to the Financial Statements
                              For the Years Ended September 30,2006 and 2005



Other Infonnation Deposit and suspense funds stated above are not available to finanee FTC
activities and are classified as non-entity assets, and a corresponding liability is recorded.

NOTE 4 -- CASH AND OTHER MONETARY ASSETS

Cash and other monetary assets held as non-entity assets consist of redress judgment
amounts on deposit with FTC's distribution agents and divestiture fund deposits. A
corresponding liability is recorded for these assets.

Cash and other monetary assets consisted of the following as of September 30, 2006 and
2005:

(Dollars in thousands)                         2006          2005


Other monetary assets
       Redress contractors                 S    57,494   $    39.384
       Divestiture fund                         43,054        42.084
Total other monetary assets                $   100.548   $    81.468




NOTE 5 --ACCOUNTS RECEIVABLE

Opening judgment receivable (consumer redress and civil penalties) balances reflect the
Federal Accounting Standards Advisory Board (FASAB) standard for the recognition of
losses using the collection criterion of "more likely than not." This criterion results in
receivable balances that are more conservatively stated than those valued by the private
sector under generally accepted accounting principles. The Board states that it is appropriate
to recognize the nature of federal receivables, which, unlike trade accounts of private firms
or loans made by banks, are not created through credit screening procedures. Rather, these
receivables arise because of the assessment of fines from regulatory violations. In these
circumstances, historical experience and economic realities indicate that these types of
claims are frequently not fully collectible.




8
                                 FEDERAL TRADE COMMISSION
                                  Notes to the Financial Statements
                          For the Years Ended September 30, 2006 and 2005



Accounts receivable consisted of the following as of September 30, 2006 and 2005:

(Dollars in thousands)                                                            2006                 2005
                                   Currently Due           Allowance               Net                  Net
    Entityassets:
    Intragovemmental-
      Accounts Receivable          $               55      $                $            55      $            87

    Non-entity assets:
    ConsumerRedress               s        1,546,439       s 1,415,926      s     130,513        $      84,023
    Civil Penalties                            7,242              787               6,455                  332

    Total Non-entity assets       $        1,553,681       s 1,416,713      s     136,968        $      84,355



NOTE 6 - PROPERTY, PLANT, AND EQUIPMENT, NET

FTC policy is to eapitalize all PP&E with an initial cost greater than $100,000 and a useful
life over two years, Such assets arc depreciated using the straight-line method of
depreciation with service lives range from three to twenty years, Additionally, internal use
software development and acquisition costs of $100,000 or greater are capitalized as
software development in progress until the development stage has been completed and the
software successfully tested, Upon completion and testing, software development-in-
progress costs are reclassified as internal use software eosts and amortized using the straight-
line method over the estimated useful life of three years, Purchased commercial software
that does not meet the capitalization eriteria is expensed, Capitalized property and
equipment, net of accumulated depreciation, consisted of the following as of September 30,
2006 and 2005:

(Dollars in thousands)                                                                    2006                 2005
                                 Service        Acquisition      Accumulated              Net                  Net
            Asset Class            Life            Value          Depredation        Book Value           Book Value


Equipment & Furniture          5-20 yrs        s         7,173   s       4,754       $        2,419      $          3,439
Leasehold Improvements         10-15 yrs                 5,842           1,350                4,492                 4,039
Software                       3 yrs                     9,060           6,001                3,059                 5,201
Software-in-Development                                  4,430                                4,430                 2,417

Total                                          $        26,505   s       12,105     s         14,400     s         15,096


Depreciation expense was $3,9 million and $33 million for fiscal years ending September
30, 2006 and 2005, respectively and is contained in the accumulated depreciation,




9
                             FEDERAL TRADE COMMISSION
                              Notes to the Financial Statements
                      For the Years Ended September 30, 2006 and 2005



NOTE 7 -- LIABILITIES NOT COVERED BY BUDGETARY RESOURCES

A breakout of Intragovemmental Liabilities and Liabilities With the Public not covered by
budgetary resources as of September 30, 2006 and 2005 are shown below:

(aJ     Intragovernmental and With the Public

(Dollars in thousands)                                              2006          2005
Intragovemmental:
       Undisbursed premerger filing fees due to DOJ             $    10,441   $     9.389
       Civil penalty collections due to Treasury                      6,455           332
       FECA liability                                                 2,400         2,388
Total intragovernmental                                              19,296        12,109

      Unfunded leave                                                  7,696         7,583
      With the public:
         Undisbursed redress                                         59,267        47,637
          Divestiture fund due                                       43,054        42,084
          Redress receivables accrued and due to claimants          130,513        84.023
         Total Iiabilities not covered by budgetary resources   $   259,826   $   193,436
         Total liabilities covered by budgetary resources            13,149        14,833
         Total liabilities                                      $   272,975   $   208.269




(b)    Other Information

Civil Penalty Collections Due represents the contra account for accounts receivable due for
civil monetary penalties, which will be transferred to the general fund of the Treasury upon
receipt.

FECA Liability consists of workers compensation claims payable to the Department of
Labor (DOL), which will be funded in a future period and an unfunded estimated liability for
future workers' compensation claims based on data provided from DOL. The actuarial
calculation is based on benefit payments made over the last 12 quarters, and calculates the
annual average of payments. For medical expenses and compensation this average is then
multiplied by the liability to benefit paid ratio for the whole FECA program.

Undisbursed Redress includes redress in FTC's Treasury deposit account, or with FTC
redress contractors.

Divestiture Fund Due represents the contra account for the divestiture fund held by one of
FTC's contractors until distribution of the funds are ordered per terms of the agreement.

Redress Net Collections Due represents the contra account for accounts receivable due from
10
                             FEDERAL TRADE COMMISSION
                              Notes to the Financial Statements
                      For the Years Ended September 30, 2006 and 2005



judgments obtained as a result of the agency's consumer redress litigation.

Undisbursed Premerger Filing Fees Liability represents undisbursed filing fees collected
under the Hart-Scott-Rodino (HSR) Antitrust Improvements Act of 1976, which are due to
the Department of Justice in a subsequent period.

Accrued Leave represents a liability for earned leave and is reduced when leave is taken. At
year end, the balance in the accrued annual leave account is adjusted to reflect the liability at
current pay rates and leave balances. Accrued annual leave is paid from future funding
sources and, accordingly, is reflected as a liability not covered by budgetary resources. Sick
and other leave is expensed as taken.

NOTE 8 -- OTHER LIABILITIES

 The following summarizes Other Liabilities as of September 30, 2006 and 2005, all are
considered current:

(Dollars in thonsands)                                            2006          2005
        Intragovemmental:
             Undisbursed premerger liability                  $    10.441   $     9,389
            Civil penalty collection due to Treasury                6,455           332
            rECA liability                                          2.400         2,388
            Accrued benefits                                          800           716
            Total Intragovernmental                           $    20,096   $    12,825

        Witb the Public
           Redress receivables accrued and due to claimants   $   130.513   $    84.023
           Undisbursed redress                                     59.267        47,637
           Divestiture fund due                                    43,054        42.084
           Accrued leave                                            7.696         7,583
           Accrued salary                                           4,367         3,918
           Total Other Liabilities                            $   244,897   $   185,245



NOTE 9 -- LEASES

Leases of commercial property are made through and managed by GSA. The Commission
has leases on four government-owned properties and ten commercial properties. The FTC's
current leases expire at various dates through 2013. Two leases provide for tenant
improvement allowances totaling $7.1 million and provide that these costs be amortized
over the length of the leases. Under the terms of the leases, the FTC agrees to reimburse the
landlord for the principal balance of the unamortized portion of the tenant improvement
allowance in the event the agency vacates the space before lease expiration. The FTC rents
approximately 571,734 square feet of space in both commercial and government-owned


II
                                 FEDERAL TRADE COMMISSION
                                  Notes to the Financial Statements
                          For the Years Ended September 30, 2006 and 2005



properties for use as offices, storage and parking.

Rent expenditures for the years ended September 30, 2006 and 2005, were approximately
$17.5 million and $17.3, respectively.

Future minimum lease payments due under leases of government-owned property as of
September 30, 2006, are as follows:

 (Dollars in thousands)


 Fiscal Year
 2007                                           $      6,091
 2008                                                  6,045
 2009                                                  5,605
 2010                                                     17
 2011                                                      4

Total Future Minimum Lease Payments             $     17,762


Future minimum lease payments under leases of commercial property due as of September
30, 2006 are as follows:

(Dollars in thousands)


Fiscal Year
2007                                            $     11,492
2008                                                  II ,086
2009                                                  11.137
2010                                                  11,277
2011                                                  11,423
Thereafter                                             9,073

Total Future Minimum Lease Payments             s     65,488



NOTE 10-- COMMITMENTS AND CONTINGENCIES

Commitments The FTC is committed under obligations for goods and services that have
been ordered but not yet received (undelivered orders) at fiscal year end. Undelivered orders,
net of unfilled customer orders from federal sources, were $33.9 million and $31.9 million
as of September 30, 2006 and 2005, respectively.

Contingencies The FTC is a party in various administrative proceedings, legal actions, and
claims brought by or against it. In the opinion of FTC management and legal counsel, the
ultimate resolution of these proceedings, actions, and claims, will not materially affect the

12
                             FEDERAL TRADE COMMISSION
                              Notes to the Financial Statements
                      For the Years Ended September 30, 2006 and 2005



financial position or the results of operation of the FTC.


NOTE II - INTRA GOVERNMENTAL COSTS AND EXCHANGE REVENUES

For 'exchange revenue with the public,' the buyer of the goods or services is a non-Federal
entity. For 'intragovernmental costs,' the buyer and seller are both Federal entities. If a
Federal entity purchases goods or services from another Federal entity and sells them to the
public, the exchange revenue would be classified as 'with the public,' but the related costs
would be classified as 'intragovernmental.' The purpose of this classification is to enable
the Federal government to provide consolidated financial statements, and not to match
public and intragovernmental revenue with costs that are incurred to produce public and
intragovernmental revenue.

(Dollars in thousands)                                                 2006            2005
Maintaining Competition Mission:
             Intragovemmenral gross costs                          $    22.355     $    21.833
             Public costs                                               65.920          62,653
                Total Maintaining Competition costs                     88,275          84,486

            Intragovemmental earned revenue                                (755)           (864)
            Public earned revenue                                      (110,913)        (99,511)
                Total Maintaining Competition net earned revenue       (111,668)       (100,375)
               Maintaining Competition net (revenue) costs              (23,393)        (15,889)

Consumer Protection Mission:
          Intragovemmenral gross costs                                  30,244          28,941
            Public costs                                                89,186          83,051
               Total Consumer Protection costs                         119,430         111,992

            Intragovernmental earned revenue                               (79)           (117)
            Public earned revenue                                      (21,697)        (18,052)
               Total Consumer Protection net earned revenue            (21,776)        (18,169)
               Consumer Protection net (revenue) costs                  97,654          93,823

            Net cost of operations                                 $    74,261     $    77.934



NOTE 12 -- EXCHANGE REVENUES

Exchange revenues are earned through the collection of fees under the Hart-Scott-Rodino
Act. This Act, in part, requires the filing of premerger notifications with the FTC and the
Antitrust Division of the Department of Justice (DOJ) and establishes a waiting period
before certain acquisitions may be consummated. Mergers with transaction amounts over
$53 million require the acquiring party to pay a filing fee. The filing fees are based on the

13
                                 FEDERAL TRADE COMMISSION
                                  Notes to the Financial Statements
                          For the Years Ended September 30,2006 and 2005



transaction amount and follow a three-tiered structure: $45,000, $125,000, and $280,000.
The FTC retains one-half of the HSR premergcr filing fees collected. Revenue is recognized
when all required documentation under the HSR Act has been reeeived by the agency. Fees
not retained by the FTC are maintained in a suspense fund until transferred to the DOJ and
not reported as revenue to the FTC.

Exchange revenues are also earned through the collection of fees for the national Do Not
Call Registry. This registry operates under Section 5 of the FTC Act, which enforces the
Telemarketing Sales Rule (TSR). The Do Not Call Implementation Act, P.L. 108-010, gives
the FTC authority to establish fees for fiscal years 2003 through 2007 sufficient to offset the
implementation and enforcement of the provisions relating to the Do Not Call Registry.
Telemarketers are required to pay an annual subscription fee and download from the Do Not
Call Registry database a list of telephone numbers of consumers who do not wish to receive
calls. Fees are based on the number of area codes downloaded. The minimum charge was
$56 to download one area code. The maximum charge was $15,400 for all area codes within
the United States. Effective September I, 2006, the new minimum charge is $62 and the
maximum charge is $17,030. Revenue is recognized when colleeted and the Telemarketer is
given access to download data from the Do Not Call database. Fees collected over expenses
are retained for use in other FTC missions.

Exchange revenue is also earned for serviees provided to other Government agencies
through reimbursable agreements. The FTC recovers the full eost of services, primarily
salaries and related expenses. Revenue is earned at the time the expenditures are incurred
against the reimbursable order. All exehange revenues are deducted from the full cost of the
FTC's programs to arrive at net program cost.

Exchange revenue consisted of the following:

(Dollars ill thousands)                  2006          2005

HSR premerger filing fees            $   110,913   $    99,511
Do Not Call registry fees                 21.697        18,052
Reimbursable agreements                      834           981

Total                                $   133,444   $   118,544




14
                             FEDERAL TRADE COMMISSION
                              Notes to the Financial Statements
                      For the Years Ended September 30, 2006 and 2005



NOTE 13 -- APPORTIONMENT CATEGORIES OF OBLIGATIONS INCURRED:
DIRECT VS. REIMBURSEABLE OBLIGATIONS

(a)      Apportionment Categories ofObligations Incurred

Obligations incurred reported on the Statement of Budgetary Resources in 2006 and 2005
consisted of the following:
(Dollars in thousands)                               2006          2005

Direct Obligations:
    Category A                                   s    69,653   s    82,007

Reimbursable Obligations:
    Category A                                       132,610       117,563
    Category B                                           577         1,239
    Total Reimbursable Obligations                   133,187       118,802

      Total                                      s   202,840   s   200,809



NOTE 14 -- EXPLANATION OF DIFFERENCES BETWEEN THE STATEMENT OF
BUDGETARY RESOURCES AND THE BUDGET OF THE UNITED STATES
GOVERNMENT

There are no material differences between amounts reported in the Statement of Budgetary
Resources and the aetual amounts reported in the Budget of the United States Government.


NOTE 15 -- EXPLANATION OF DIFFERENCES BETWEEN LIABILITIES NOT
COVERED BY BUDGETARY RESOURCES AND COMPONENTS REQUIRING OR
GENERA TING RESOURCES IN FUTURE PERIODS

FECA Liability and Accrued Leave. The changes in both of these balances between FY
2006 and FY2005 are reflected as part of Components Requiring or Generating Resources in
Future Periods on the Statement of Finaneing. The inerease in Aecrued Leave of$I13,OOO
is included in the inerease in Annual Leave Liability line on the Statement of Financing, and
the increase in FECA Liability of$ 12,000 is included in the "Other" line as part of the
resources that fund future periods.

NOTE 16 -- CUSTODIAL ACTIVITIES

The FTC functions in a custodial capacity with respect to revenue transferred or transferable
to recipient government entities or the public. These amounts are not reported as revenue to
the FTC. The major components of the FTC's custodial activities are discussed below.

15
                            FEDERAL TRADE COMMISSION
                             Notes to the Financial Statements
                     For the Years Ended Septemher 30, 2006 and 2005



(a)     Premerger Filing Fees

All Hart-Scott-Rodino (HSR) premerger filing fees are collected by the FTC pursuant to
section 605 ofP.L. 101-162, as amended, and are divided evenly between the FTC and the
DOl. The collected amounts are then credited to the appropriations accounts of the two
agencies (FTC's "Salaries and Expenses" and DOl's "Salaries and Expenses, Antitrust
Division"). During fiscal years 2006 and 2005 FTC collected $221.8 million and $199.0
million, respectively, in HSR fees. Total collections in the amount of $110.9 were retained
for distribution, of which $100.6 million of this collection was transferred to DOl in 2006
and $90.3 in 2005. As of September 30, 2006 the undistributed collections remaining in the
amount of $10.4 million represent amounts to be transferred to DOl in a future period.

(b)     Civil Penalties and Fines

Civil penalties eollected in connection with the settlement or litigation of the FTC's
administrative or federal court cases are collected by either the FTC or DOl as provided for
by law. DOl assesses a fee equivalent to three percent of amounts collected before remitting
them to the FTC. The FTC then deposits these collections into the U.S. Treasury. Civil
penalties collected also include amounts collected tor undecided civil penalty cases held in
suspense until final disposition of the case.

(c)     Redress

The FTC obtains consumer redress in connection with the settlement or litigation of both its
administrative and its federal court cases. The FTC attempts to distribute funds thus obtained
to consumers whenever possible. If consumer redress is not practical, the funds are paid
(disgorged) to the U. S. Treasury, or on occasion, other alternatives, such as consumer
education, are explored. Major components of the program include eligibility determination,
disbursing redress to claimants, and accounting tor the disposition of these funds.
Collections made against court-ordered judgments totaled $37.2 million and $62.2 million
during fiscal years 2006 and 2005, respectively.

The sources of these collections are as follows:


(Dollars in thousands)       2006           2005

Contractors              s     4,892    s     3,076
Receivers                      1,7 i2        25,761
FTC                           30,679         33.344

Total                    $    37,283    s    62.181




16
                            FEDERAL TRADE COMMISSION
                             Notes to the Financial Statements
                     For the Years Ended September 30, 2006 and 2005



 (d)    Divestiture Fund

One judgment obtained by the FTC on behalf of its maintaining cornpetition rmssron
stipulates the divestiture of assets by the defendants into an interest-bearing aeeount to be
monitored by the ageney. The aeeount balance represents prineipal and related interest held
in one of the FTC's contractor aceounts as stipulated in the judgment. A corresponding
liability is recorded. Net interest earned in fiscal year 2006 and 2005, was $970,000 and
$708,000, respectively.

Divestiture Fund activity in fiscal years 2006 and 2005 consisted of the following:

(Dollars in thousands)                     2006           2005

Beginning Balance                      $    42,084    $    41,376

Interest                                     1,838            866
Expense                                       (868)          (158)
Net Total                                      970            708

Ending Balance                         s    43,054    $    42,084



(e)    Accrual Adjustments

These adjustments represent the difference between the agency's opening and closing
accounts receivable balances. Accounts receivable are the funds owed to the agency (as a
custodian) and ultimately to consumers or otber entities. See Exhibit A for computation of
accrual adjustments to the Statements of Custodial Activity.

(f)     Receivers

Funds forwarded to receivers for distribution to consumers was $7,560 and $182,000 for
fiscal year 2006 and 2005, respeetively.

(g)    Redress to Claimants

Redress to claimants consists of amounts distributed to consumers by the FTC, one of its
contracted agents, the court appointed receiver, or the defendant. In fiscal year 2006 a total
of $14.3 million was distributed to consumers: $12.6 million was paid by the FTC and its
contracted agents, and $1.7 million was paid by receivers. In fiscal year 2005, a total of
$66.1 million was distributed to consumers: $40.3 million was paid by the FTC and its
eontraeted agents, and $25.8 million was distributed by reeeivers.



17
                          FEDERAL TRADE COMMISSION
                           Notes to the Financial Statements
                   For the Years Ended September 30, 2006 and 2005




(h)    Contractor Fees Net ofInterest Earned

Collections against monetary judgments are often deposited with one of the agency's two
redress eontractors until distributions to consumers occur. Funds are deposited in interest-
bearing accounts, and the interest earnings are used to fund administrative expenses.
Contractor expenses for the administration of redress aetivities and funds management
amounted to $2.5 million and 86.8 million during the years ended September 30, 2006 and
2005, respectively. Interest earned was $1.6 million and 8.5 million during fiscal years 2006
and 2005, respectively, with the difference of $.9 million and $6.3 million representing net
expense.

(i)    Change in Liability Accounts

Liability accounts contain funds that are in the custody of the agency or its agents, and are
owed to others (consumers, receivers for fees, and/or the Department of Justice). See Exhibit
B for the computation of liability aceount changes.

(j)    Current Year Judgments

A judgment is a formal decision handed down by a court. Redress judgments include
amounts that defendants have agreed, or are ordered to pay, for the purpose of making
restitution to consumers deemed to have been harmed by the actions of the defendanus) in
the case. For purposes of presentation in Exhibit A, redress judgments include cases in
which the FTC, or one of its agents, is directly involved in the collection or distribution of
consumer redress. In fiscal years 2006 and 2005 the agency obtained and reported in Exhibit
A monetary redress judgments against defendants totaling $315.2 million and $835.0
million, respectively.

The FTC does not ine1ude in the presentation of Exhibit A current redress judgment cases in
which the FTC, or one of its agents, is not directly involved with the collection or
distribution of consumer redress. These are cases in which the defendant, or other third
party, has been ordered to pay redress directly to the consumers. In most of these cases, the
judgment has ordered redress in the form of refunds or credits.

The agency also obtained civil penalty judgments of 827.3 and $6.6 million in fiscal years
2006 and 2005, respectively.

(k)    Treasury Referrals and Prior Year Recoveries

Monetary judgments six months or more past due are referred to the Department of Treasury
for follow-up collection efforts in keeping with the Debt Collection Improvement Act of
1996 (DCIA). Treasury's Debt Management Services (OMS) administers the program, and

18
                          FEDERAL TRADE COMMISSION
                           Notes to the Financial Statements
                   For the Years Ended September 30, 2006 and 2005



deducts 18 percent from amounts ultimately collected for its fee. Collections, net of fees, are
returned to the FTC for distribution to either consumers, in the form of redress, or to the
general fund of the Treasury as disgorged amounts. In fiscal years 2006 and 2005, $.9
million and $1.5 million (net offees) were collected by OMS based on FTC referrals and are
reported as collections on the Statements of Custodial Activity. The FTC refers to OMS only
those cases as defined in DCIA. This excludes cases that are in receivership, or bankruptcy
or foreign debt. During 2006 and 2005, $176.7 and $104.6 million were referred to the OMS
for collection.

Prior year recoveries include amounts collected on cases that were written off in a previous
year. In fiscal years 2006 and 2005, $1.7 million and $2.9 million were collected.

(I)    Adjustments to the Allowance

Adjustments to the allowance for redress, totaling $233.1 million, represent adjustments to
the provision for uncollectible amounts. Adjustments to the allowance for eivil penalty,
totaling $147,800, represent adjustments to the provision for uncollectible amounts.


NOTE 17 - UNDELIVERED ORDERS AT THE END OF THE PERIOD

The amount of budgetary resources obligated for undelivered orders at the end of September
30,2006 and 2005 is $33.2 and $32.5 million, respectively.




19
                                            FEDERAL TRADE COMMISSION
                                           SUPPLEMENTARY INFORMAnON
                                   For the Years Ending September 30, 2006 and 2005
                                                    (Dollars in thousands)




Intragovemmental Assets:
                                               Fund Balance with Treasury        Accounts          Total             Total
Tradir:HLPartner AgencY:                         Entlll--      Non-Entity        Recelvabfe        2006              2005

U.s. Department of Treasury                   $      57,925     $      12,214    $             $     70,139      $     78,213
Agency for International Development                                                      46               46                33
Other Government Agencies                                                                  9                9                54

Totallntragovemmental Assets                 ~-      5:7,925    $      12,214    $        55   $     70,194      $     78,300




Intragovemmental liabilities:
                                                  Accrued           Accounts                       Total             Total
Trading Partner Agency:                           BenefItS     ~able                 NA            2006              2005

Covered by Budgetary Resources:

General Services Administration               $                 $         694    $             $           694   $           416
Government Printing Ofice                                                 603                              603          1,274
Homeland Security                                                         401                              401               100
Department of Justice                                                     253                              253
U.S. Postal Inspection Service                                            114                              114               125
U.S. Department of Treasury                             198                94                              292               256
Office of Personnel Management                          602                37                              639               593
Department of Transportation                                               17                               17               416
Department of labor                                                                                                            4

Total Covered by Budgetary Resources          $         800     $        2,213   $             $       3,013     $      3,184

Not Covered by Budgetary Resources:

Department of Justice                         $                 $       10,441   $             $     10,441      $      9,389
Department of labor                                                      2,400                        2,400             2,388
U.S. Department of Treasury                                              6,455                        6,455                  332

Total Not Covered by Budgetary Resources      s                 $       19,296   $             $      19,296     $     12,109
                            FEDERAL TRADE COMMISSION
                               Supplementary Information
                   For the Years Ending September 30,2006 and 2005
                                  (Dollars in thousands)


Exchange Revenue from Reimbursable Agreements

Trading Partner:                                               2006             2005

U.S. Agency for International Development                  $          592   $          332
U.S. Department of State                                              120              401
Federal Mine Safety & Health Review Commission                         40               38
Medicare Payment Advisory Commission/GSA                               20               19
U.S. Postal Inspection Service                                         20               17
Department of Commerce                                                  9                4
Securities and Exchange Commission                                      8               21
Board of Governors of the Federal Reserve System                        8               21
Federal Deposit Insurance Corp.                                         8               21
Office of the Comptroller of the Currency                               8               21
National Credit Union Admin                                             1               15
Department of Justice                                                                   42
U.S. Trade and Development Agency                                                       29
Total Exchange Revenue from Reimbursable Agreements        $          834   $          981

Related Costs:

BUdget Function Ctassification:                                2006             2005

Other Advancement of Commerce                              $          834   $          981
Total Related Costs                                        $          834   $          981
                        FEDERAL TRADE COMMISSION
                          Supplementary Information
              For the Years Ending September 30,2006 and 2005
                                   (Dollars in thousands)




Intragovernmental Expenses:

Trading Partner:                                                2006            2005

Office of Personnel Management                              $    22,268     $    21,109
General Services Administration                                  18,389          18,422
Social Security Administration                                    5,591           5,254
Government Printing Office                                        1,762           2,270
Department of Homeland Security                                   1,655           1,038
Department of the Interior                                          872             865
Department of Transportation                                        722             709
Department of Justice                                               646              53
Department of Labor                                                 378             265
Department of Health and Human Services                             226             229
National Archives and Records Administration                         47              46
Department of State                                                  26              64
Library of Congress                                                  10
Department of Commerce                                                 9              4
U.S. Environmental Protection Agency                                   2            185
United States Postal Service                                           1            247
U.S. Department of Treasury                                           (5)            14
Totallntragovernmental Expenses                             $    52,599     $    50,774



Mission:

Maintaining Competition                                     $    22,355     $    21,833
Consumer Protection                                              30,244          28,941

Totallntragovernmental Expenses                             $    52,599     $    50,774
                                                                                                                                            Exhibit A

                                                      FEDERAL TRADE COMMISSION
                                                Notes to the Statements of Custodial Activity
                                                            Accrual Adjustments
                                                        September 30, 2006 and 2005
                                                             (Dollars in thousands)




                                                               , - - -CP Mission                                      2006              2005
Part 1                                                 Civil Penal.!L- Redress                Subtotal CP             Total             Total
                                                                                                              -
JUdgments Receivable - Net Beginning                   $       332      $       84,023    $         54,355    $          54,355     $      62,879

Add:

 Current Year Judgments (Note 16i)                           27,360            315,195             342,555              342,555           841,649
 Prior Year Recoveries (Note 16k)                                                1,719               1,719                1,719             2,921

Less:

 Collections by FTC/Contractors Receivers                   (20,458)           (37,283)            (57,741)              (57,741)         (68,660)
 Collections by DOJ for Litigation Fees/Other                  (631)                                  (631)                 (631)            (199)

Less:

 Adjustments to Allowance (Note 161)                           (148)          (233,141)           (233,289)
                                                                                                              -        (233,289)         (754,235)

JUdgments Recetvable • Net, Ending                     $      6,455     $      130,513    $        136,968        $     136,968     $      84,355

Part 2

Judgments Receivable - Net Ending                      $      6,455     $      130,513    $        136,968        $     136,968     $      84,355
Judgments Receivable - Net Beginning                            332             84,023              54,355               54,355            62,879

Accrual Adjustment                                     $      6,123     $       46,490    $         52,613        $      52,613     $      21,476
                                                                                                                                                        Exbibit B


                                                            FEDERAL TRADE COMMISSION
                                                      Notes to the Statements 01Custodial Activity
                                                                   Change in Liability
                                                              September 30, 2006 and 2005
                                                                    {Dollars in thousands}




                                                     MCMissioD                                                    CPMission
                               Pre-Merger    Divestiture   Civil Penalty      Subtotal MC     Civil Penalty        Redress       Subtotal··CP         Total
                                                                                                              -
Liabilities @ 09/30106         s    10,441   $   43,054     s                s       53,495   $      6,455    s       189,780    s    196,235     $    249,730

Liabilities @ 09/30/05               9,389       42,084                              51,473            332            131,660         131,992          183,465

Change in Liability Accounts   s     1,052          970             ·        s        2,022   $      6,123    $       58,120     $     64,243     $     66,265




                                                     Me Mission                                                   CPMissioD
                               Pre-Merger    Divestiture   Civil Penalty      SubtotalMC      Civil Penalty        Redress        Subtotal..CP        Total

Liabilities @ 09/30/05         $     9,389   $   42,084     $       ·        s       51,473   $        332        $   131,660    $    131,992     $    183,465

Liabilities @09/30/04                6,530       41,376             ·                47,906            985            145,008         145,993          193,899

Change in Liability Accounts   $     2,859   $      708     $       ·         $       3,567   $       (653)       $   (13,348)   .s    (14,001)   s     (10,434)
